             Review of Actions to Deny or Cancel Applications for Benefits

           Under the Railroad Retirement Act, Report No. 06-07, July 18, 2006 


                                     INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) review of
Railroad Retirement Board (RRB) actions to deny or cancel applications for benefits
under the Railroad Retirement Act (RRA).

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. During fiscal year 2005, the RRB paid approximately $9.2
billion in RRA benefit payments to 634,000 retirement and survivor beneficiaries.

The RRA provides for the payment of monthly annuities to retired railroad workers, their
spouses and survivors. The agency pays annuities on the basis of years of service and
age or disability.

The Office of Programs is responsible for the adjudication of benefits including
decisions on entitlement and computation of payment amounts. Benefit payment
operations are supported by both mainframe and local area network based computer
operations from the time of application through payment including the maintenance of
comprehensive historical records.

Under the RRA, benefits can only be paid to entitled individuals who file an application
for benefits. Applicants are required to demonstrate that they have met the minimum
requirements for the type of annuity for which they have applied. These requirements
typically pertain to the qualifying earnings record of the railroad worker and the
applicant’s age or disability status. Applications are sometimes filed by individuals who
do not meet the eligibility requirements established by the RRA. Such claims are
denied by the agency and the applicant is notified of the reason(s) for its decision.
Applicants who disagree with the agency’s decision to deny benefits may request that
the decision be reversed through the appeals process.

Sometimes an individual may file an application and later withdraw their claim for
benefits. In these cases, the applicant is required to notify the agency in writing that
they do not wish to pursue their claim for benefits 1. When a person cancels an
application, the effect is the same as though an application was never filed.




1
    20 CFR §217.26


                                             1

This review was undertaken to support the OIG’s annual audit of the RRB’s financial
statements, which is required by the Accountability of Tax Dollars Act of 2002. In
compliance with the Office of Management and Budget’s Bulletin 01-02, Audit
Requirements for Federal Financial Statements, the OIG assesses compliance with
selected provisions of the RRA as part of its annual audit of the RRB’s financial
statements.

Objective, Scope, and Methodology

The objective of this audit was to determine whether applications that were cancelled by
the applicant or denied by the agency during the first quarter of FY 2005 were
processed in accordance with law, regulation and applicable procedure. To accomplish
our objective, we:

   	 interviewed responsible management and staff;

   	 identified the provisions of the RRA applicable to the denial and cancellation of
      applications; and

   	 assessed the agency’s overall compliance with applicable law, regulation, and
      agency procedure using statistical acceptance sampling.

The details of our sampling methodology are presented in Appendix I. Our tests of
internal control were limited to an assessment of the evidence presented by the results
of our sampling tests.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. We performed audit fieldwork at RRB
headquarters in Chicago, Illinois from April through June 2005, and March 2006.




                                            2

                                  RESULTS OF REVIEW 


The RRB generally processed cancellations and denials during the first quarter of FY
2005 in compliance with applicable provisions of the RRA and related regulations.
However, the agency needed to strengthen controls to ensure that supporting
documentation is retained in accordance with Office of Programs’ procedure.

Documentation Not Maintained Timely on Imaging System

The Office of Programs needs to strengthen controls to ensure retention of
documentation supporting denials and cancellations.

Transactions and other significant events should be clearly documented, and the
documentation should be readily available for examination. Documentation of
transactions and other significant events should be complete, accurate and, whether in
paper or electronic form, be useful to managers in controlling their operations and to
any others involved in evaluating or analyzing operations. 2, 3

The Office of Programs has implemented a computer based electronic imaging system
which serves as the repository for most documentation accumulated during the claims
adjudication process. Documents may be stored in the imaging system manually by
scanning paper documents into a compatible format or electronically by passing
computer-generated documents to the system. The imaging system has replaced
paper claim folders for most cases.

We evaluated a random sample of 45 applications that had been denied or cancelled
during the first quarter of FY 2005. In six of the cases reviewed (13%), the key
documentation supporting the agency’s action had not been stored in the imaging
system.

During the sample review process, we were unable to locate the written statements
supporting three requests to cancel pending applications. In each case, the applicant’s
statements had been retained in the paper files of the field office instead of being
forwarded to headquarters. At that time, the Office of Programs had not published
formal procedures requiring field service personnel to send these statements to
headquarters for imaging and did not have a control to ensure that all such statements
were received.

In addition, we were unable to locate copies of letters notifying three applicants of the
agency’s decision to deny their application for benefits. The denial letters, which are
generated electronically, had not been imaged because they had been retained

2
 GAO, Standards for Internal Control In the Federal Government, (GAO/AIMD-00-21.3.1, November
1999), Page 15.
3
GAO, Internal Control Management and Evaluation Tool, (GAO-01-1008G, August 2001), page 43.



                                                3

erroneously by the Survivor Benefits Division in a temporary electronic authorization
folder instead of being forwarded to the imaging system in accordance with existing
procedure. That division did not have a control to ensure that all such letters would be
forwarded to imaging after they had been authorized and released to the applicant.

Missing documentation makes it more difficult to determine the accuracy of the
adjudicative actions, increases the risk of adjudicative errors, and weakens agency
accountability and credibility.

The Office of Programs has reviewed the exceptions identified by the audit to determine
what additional controls would strengthen controls over the retention of documentation.
In August 2005, the Survivor Benefits Division implemented additional controls to
ensure that correspondence generated electronically is forwarded to the imaging
system after authorization. At about the same time, Policy and Systems issued
procedures requiring field service personnel to forward cancellation requests to
headquarters for imaging.

Management’s Response

The Office of Programs agrees with the finding and noted that they had already taken
action to strengthen controls. The full text of management’s response is included as
Appendix II to this report.




                                            4

                                                                                    Appendix I

                     SAMPLING METHODOLOGY AND RESULTS
                    Acceptance Sampling for Overall Compliance

We used statistical sampling to determine whether cancellations and denials of
applications under the RRA were executed in compliance with applicable provisions of
that law and related regulations.

Objective and Scope

The sampling objective was to determine whether the RRB processed cancelled
applications and benefit denials in compliance with applicable provisions of the RRA
and related regulations. The sample was drawn from the universe of 252 applications
that were cancelled or denied during the first quarter of FY 2005.

Review Methodology

Our case review methodology linked RRA provisions governing the denial and
cancellation of applications for benefits to the specific information, determinations and
documentation required to support the agency decisions to deny benefits or cancel an
application. For each case in the sample, we reviewed information retained in support
of the agency’s action to deny or cancel an application and determined whether:

   •	 RRB decisions to deny benefits had a basis in the RRA; and

   •	 the agency sent applicants whose claims for benefits were denied a written
      explanation of the reason for denial that included notice of the applicant’s right to
      appeal the agency’s decision; or

   •	 the RRB had obtained a written request, signed by the applicant, prior to 

      cancellation of a pending application for benefits. 


Sampling Methodology

We used statistical acceptance sampling using a 90% confidence level and a 5%
tolerable error which directed a 45 case sample drawn at random from the universe of
252 agency actions to cancel or deny an application for benefits..

The threshold for sample acceptance was zero errors. Zero errors would permit the
auditors to infer with 90% confidence that the RRB had a reasonable basis for its
decision in at least 95% of the universe of all cancellation/denial actions. We applied
the same sample acceptance threshold in our evaluation of control effectiveness when
other types of processing errors were identified.

Results of Sample Review

Our review of 45 cases did not identify any cases of non-compliance with the RRA or
related regulations.


                                            5

                                                                                Appendix I

                    SAMPLING METHODOLOGY AND RESULTS 

                   Acceptance Sampling for Overall Compliance 



Other Exceptions

Our sample of 45 cases included three cancellations and three denials for which the
RRB had not retained the documentation supporting compliance in the agency’s
document imaging system. The missing documentation indicates a weakness in
internal control but did not adversely impact our conclusion concerning compliance
because the documentation was eventually located elsewhere.

Audit Conclusion

We conclude, with 90% confidence, that the RRB processed canceled or denied benefit
applications in compliance with the law in at least 95% of cases. Internal control over
documentation of denials and cancellations may require improvement.




                                           6

7
